l‘

No. 17-3326
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
*

FILED
ISAIAH HARRIS,
Petitioner-Appellant,
v.
DAVE MARQUIS, Warden,
Respondent-Appel lee.

)
)
)
)
)
)
)
)
)
)
)

Sep 28, 2017
DEBORAH S. HUNT, Clerk

ORDER

Isaiah Harris, a pro se Ohio prisoner, appeals the district court’s judgment dismissing his
petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. Harris moves the court for a
certificate of appealability (COA) and to proceed in forma pauperis on appeal.
In May 2009, Harris was convicted after a bench trial of domestic violence, violating a
protection order, rape, aggravated burglary, and intimidation. The trial court sentenced Harris to
an aggregate term of twenty-three-and-a-half years of imprisonment. The Ohio Court of Appeals
affirmed Harris’s convictions, State v. Harris, Nos. 09CA009605, 09CA009606, 09CA009607,
2010 WL 1016085 (Ohio Ct. App. Mar. 22, 2010), and the Ohio Supreme Court denied leave to
appeal, State v. Harris, 932 N.E.2d 339 (Ohio 2010). Harris did not seek state post-conviction
relief.
In April 2014, Harris filed a § 2254 petition, and in February 2015 a supplement to the
petition, raising a total of five claims: (1) he is actually innocent of the crimes of conviction;
(2) the evidence was insufficient to find him guilty beyond a reasonable doubt; (3) the habeas
statute of limitations should be equitably tolled; (4) and (5) he received ineffective assistance of
appellate counsel. Over Harris’s objections, the district court adopted a magistrate judge’s report

No. 17-3326
-2-

and recommendation that concluded that Harris’s claims were barred by the one-year 28 U.S.C.
§ 2244(d)(1) statute of limitations and that Harris was not entitled to equitable tolling based on
his asserted inability to access the prison law library or his claim of actual innocence. The
district court declined to issue a COA.
When a district court denies a habeas petition on procedural grounds, the court may issue
a certificate of appealability only if the applicant shows “that jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Harris’s claims are untimely under § 2244(d)(1)(A) because he filed his petition in 2014,
more than one year after his convictions became final in November 2010, when his time for
filing a petition for a writ of certiorari in the United States Supreme Court expired. See Payton v.
Brigano, 256 F.3d 405, 409 n.3 (6th Cir. 2001). Harris does not argue that his petition is timely
under any other provision of § 2244(d)(1). Reasonable jurists therefore would not debate the
district court’s conclusion that Harris’s petition is barred by the statute of limitations.
The statute of limitations is not jurisdictional, however, and may be equitably tolled by
the court upon a credible showing of actual innocence by the petitioner. See Souter v. Jones, 395
F.3d 577, 588-89 (6th Cir. 2005). The petitioner must support his actual innocence claim with
new, reliable evidence that establishes that it is more likely than not that no reasonable juror
would have found him guilty beyond a reasonable doubt. See Cleveland v. Bradshaw, 693 F.3d
626, 633 (6th Cir. 2012). Harris’s actual innocence claim is based on allegedly newly discovered
evidence that the victim in the case, his former girlfriend K.T., had falsely accused him of
domestic violence in the past. Harris claims that the prosecution failed to disclose this evidence
in violation of Brady v. Maryland, 373 U.S. 83 (1963), that it could have been used to impeach
K.T. at trial, and that he probably would not have been convicted because the outcome of his trial
hinged on her credibility. The district court concluded that Harris failed to make a credible
showing of actual innocence.

No. 17-3326
-3Although the trial record shows that the prosecution did not disclose to Harris that K.T.
had previously made domestic violence allegations against him that the police determined were
unfounded, the record also shows that Harris’s attorney acquired this information independently
before trial. Consequently, the prosecution’s failure to disclose the impeaching evidence was
harmless. See Carter v. Bell, 218 F.3d 581, 601 (6th Cir. 2000) (stating that there is no Brady
violation if the information was available to the defendant from another source). Moreover, the
trial judge permitted Harris to testify, albeit in a limited fashion, that K.T. had previously made
false accusations against him. Additionally, K.T. admitted on cross-examination that she had
previously lodged false domestic violence charges against Harris and that she was nearly charged
with making a false complaint.

Consequently, the allegedly new impeachment evidence is

cumulative and does not show that it is more likely than not that no reasonable juror would have
convicted Harris. See Byrdv. Collins, 209 F.3d 486, 518-49 (6th Cir. 2000). Reasonable jurists
therefore would not debate the district court’s conclusion that Harris is not entitled to equitable
tolling of the statute of limitations because he has not made a credible showing of actual
innocence.
Finally, reasonable jurists would not debate the district court’s conclusion that Harris is
not entitled to equitable tolling based on his asserted inability to access the prison law library
while he was on lockdown status. See Hall v. Warden, Lebanon Corr. Inst., 662 F.3d 745, 751
(6th Cir. 2011).
Accordingly, the court DENIES Harris’s COA application and DENIES as moot his
motion to proceed in forma pauperis.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

